No.

IN THE
SUPREME COURT OF THE UNITED STATES

Antonia-WrShiehls,“PETITIONER'
v.
United States, RESPONDENT

m
k
& i gpS?
1)

i

On Petition for a Writ of Certiorari to
The United States court of appeals for the Second Circuit

Petition for Writ of Certiorari

FILED
AUG 2 7 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.
t

Antonia W.
PO Box 195
Saratoga Springs, NY 12866
(315) 368-4415

vii.

V*

QUESTION PRESENTED

Under U. S. Constitution Article III, section 2
and U. S. Constitution Article VI.,
is the Government sovereignly immune to duty
in U. S. Constitution Amendment I. for the fair
right of free U. S. citizens, rich and poor,
to petition the Government for redress of
subject-matter grievances?

►

viii.

t;

LIST OF PARTIES

All parties appear in the caption of the case on the cover page.

RELATED CASES

Shields v. United States, No. 20-cv-152 (GTS/CFH) U.S. district court for the
Northern District of New York (NDNY)
Amended Judgment entered July 26, 2021.
Shields v. United States, No. 20-3427 U.S. court of appeals for the Second
Circuit. Summary Order and Judgment entered June 4, 2021.
Shields v. United States, No. 20-6860*, U. S. Supreme Court Order, entered
March 8, 2021. (petition for writ of certiorari before Judgment denial).
(*This case may continue under this number, but Shields does not know,
because she is pro se.)

ix.

If

TABLE OF CONTENTS

page

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL, STATUTORY PROVISIONS and RULES INVOLVED....3
STATEMENT OF THE CASE

11

REASONS FOR GRANTING THE PETITION FOR WRIT OF CERTIORARI.. 15

28

CONCLUSION
INDEX TO APPENDICES
APPENDIX A

SUMMARY ORDER AND JUDGMENT, U.S. court of appeals,
for the Second Circuit

APPENDIX B

MANDATE, U. S. court of appeals, Second Circuit

APPENDIX C

AMENDED JUDGMENT in Civil Case, U.S. district court NDNY

APPENDIX D

ORDER, before Judgment denial, U. S. Supreme Court

APPENDIX E

ORDER: U. S. court of appeals, Second Circuit to United States

APPENDIX F

JUDGMENT in Civil Case, U.S. district court NDNY

APPENDIX G

DECISION AND ORDER, U.S. district court NDNY

APPENDIX H

REPORT-RECOMMENDATION (entirety)U. S.district court

APPENDIX I

LETTER: United States to U.S. court of appeals, Second Circuit

APPENDIXJ

CLERK’S CERTIFICATION proceed IFP to Second Circuit

APPENDIX K

OBJECTIONS

APPENDIX L

GENERAL DOCKET, U.S. district court NDNY

APPENDIX M

COMPLAINT, filed February 12, 2020, entered next day.
x.

*■'

fte.1:

TABLE OF CITED AUTHORITIES
page number in petition
CASES
Marbury v. Madison, 5 U. S. (1 Cranch) 137 (1803).

26

New York Times Co. v. United States, 403 U. S. 713 (1971).......... 16
Nixon v. Fitzgerald, 457 U S. 731 (1982).

...17-----

U.S. CONSTITUTIONAL PROVISIONS
U. S. Const, pmbl.

3, 15

U. S. Const, art. Ill, § 2

,viii,3,14,18,20,24,25,26,27

U. S. Const, art. VI

4,19,20,23,24,25,27

U. S. Const, amend. I

viii, 4, 11,12,15,16,17
18, 20,23,24,25,26,27

STATUTES AND RULES
28 U. S. C. § 453

4, 19, 24

28 U. S. C. § 1331

5, 24, 25

28 U. S. C. § 1915

5,12,14,17,19,21,22,23,24,26

28 U. S. C. § 2072

8, 26

Fed. R. Civ. P. 4(c)(3)

8, 12

U. S. district court NDNY Local Rule (2020) 5.4

9,19,21,22,24

OTHER MATERIALS
Black’s Law Dictionary, 8th ed. (2004).
xi.

15, 16

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays to the above that a writ of certiorari issue to review
the judgment below.

OPINIONS BELOW
For this case from the federal courts:
The opinion of the United States court of appeals appears at Appendices
A, B, and E to the petition, and it is unknown to pro se Shields if any opinion
is reported.

The opinion of the United States district court NDNY Civil Division 1 Albany appears at Appendices C, F, G, and H to the petition, and it is
unknown to pro se Shields if any opinion is reported.
r
The opinion of the United States Supreme Court, petition for writ of
certiorari before Judgment denial, is reported by letter and appears at
Appendix D.

1

ir*

JURISDICTION

For this case from the federal courts:
The date of entry of the Summary Order and Judgment of the United States
Court of Appeals for the Second Circuit who decided this case was June 4, 2021.

The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

?

2

CONSTITUTIONAL, STATUTORY PROVISIONS, RULES INVOLVED
U. S. Const, pmbl.
We the People of the United States, in Order
to form a more perfect Union, establish Justice, in­
sure domestic Tranquility, provide for the common
defence, promote the general Welfare, and secure
the Blessings of Liberty to ourselves and our
Posterity, do ordain and establish this Constitution
for the United-States of-America.---------------------------U.S. Const, art. Ill, § 2.
The judicial Power shall extend to
all Cases, in Law and Equity, arising under this Constitution, the
Laws of the United States, and Treaties made, or which shall be
made, under their Authority;-to all Cases affecting Ambassadors,
other public Ministers and Consuls;-to all Cases of admiralty and
maritime Jurisdiction;-to Controversies to which the United
States shall be a Party;-to Controversies between two or more
States;-[between a State and Citizens of another State;-]* between
Citizens of different States,- between Citizens of the same State
claiming Lands under Grants of different States, [and between a
State, or the Citizens thereof, and foreign States, Citizens or
Subjects.]*
In all Cases affecting Ambassadors, other public Ministers
and Consuls, and those in which a State shall be Party, the
supreme Court shall have original Jurisdiction. In all the other
Cases before mentioned, the supreme Court shall have appellate
Jurisdiction, both as to Law and Fact, with such Exceptions, and
under such Regulations as the Congress shall make.
The Trial of all Crimes, except in Cases of Impeachment;
shall be by Jury; and such Trial shall be held in the State where
the said Crimes shall have been committed; but when not
committed within any State, the Trial shall be at such Place
or Places as the Congress may by Law have directed.
U.S. Const, art. Ill, § 2.
*Changed by the Eleventh Amendment

3

U.S. Const, art. VI.
All Debts contracted and Engagements entered into, before
the Adoption of this Constitution, shall be as valid against the
United States under this Constitution, as under the Confederation.
This Constitution, and the Laws of the United States which
shall be made in Pursuance thereof; and all Treaties made, or
which shall be made, under the Authority of the United States,
shall be the supreme Law of the Land; and the Judges in
every State shall be bound thereby, any Thing in the Constitution
or Laws of any State to the Contrary notwithstanding.
The Senators and Representatives before mentioned, and
the Members of the several State Legislatures, and all executive
and judicial Officers, both of the United States and of the several
states, shall be bound by Oath or Affirmation, to support this
Constitution; but no religious Test shall ever be required as a
Qualification to any Office or public Trust under the United
States.
U.S. Const, art. VI.
U.S. Const, amend. I.
Congress shall make no law respecting an
establishment of religion, or prohibition the free
exercise thereof; or abridging the freedom of
speech, or of the press; or the right of the people
peaceably to assemble, and to petition the
Government for a redress of grievances.
U.S. Const, amend. I.
28 U. S. C. § 453
Each justice or judge of the United States shall take the
following: oath or affirmation before performing: the duties of his
office: “I,
., do solemnly swear (or affirm) that I will
administer justice without respect to persons, and do equal right
to the poor and to the rich, and that I will faithfully and
impartially discharge and perform all the duties incumbent upon
me as
under the Constitution and laws of the United States.
So help me God.”
28 U. S. C. § 453
4

28 U. S. C. § 1331:
Federal question The district courts shall have original
jurisdiction of all civil actions arising under the
Constitution, laws, or treaties of the United States.
28 U. S. C. § 1331
28 U. S. C. § 1915: Proceedings in forma pauperis
(1) Subject to subsection (b), any court of the United
(a)
States may authorize the commencement, prosecution----or defense of any suit, action or proceeding, civil or
criminal, or appeal therein, without prepayment of
fees or security therefor, by a person who submits an
affidavit that includes a statement of all assets
such prisoner possesses that the person is unable to
pay such fees or give security therefor. Such affidavit
shall state the nature of the action, defense or appeal
and affiant’s belief that the person is entitled to
redress.
(2) A prisoner seeking to bring a civil action or appeal
a judgment in a civil action or proceeding without
prepayment of fees or security therefor, in addition to
filing the affidavit filed under paragraph (1), shall
submit a certified copy of the trust fund account
statement (or institutional equivalent) for
the prisoner for the 6-month period immediately
preceding the filing of the complaint or notice of
appeal, obtained from the appropriate official of
each prison at which the prisoner is or was confined.
(3) An appeal may not be taken in forma pauperis if
the trial court certifies in writing that it is not taken in
good faith.
(1) Notwithstanding subsection (a), if
(b)
a prisoner brings a civil action or files an appeal in
forma pauperis, the prisoner shall be required to pay
the full amount of a filing fee. The court shall assess
and, when funds exist, collect, as a partial payment of
any court fees required by law, an initial partial filing
fee of 20 percent of the greater of—
(A) the average monthly deposits to the
prisoner’s account; or

5

(B) the average monthly balance to the
prisoner-s-account-for-the-6-month-periocl
immediately preceding the filing of the
complaint or notice of appeal.
(2) After payment of the initial partial filing fee, the
prisoner shall be required to make monthly payments
of 20 percent of the preceding month’s income
credited to the prisoner’s account. The agency having
custody of the prisoner shall forward payments from
the prisoner’s account to the clerk of the court each
time theamount in the account exceeds $10 until the-------filing fees are paid.
(3) In no event shall the filing fee collected exceed the
amount of fees permitted by statute for the
commencement of a civil action or an appeal of a civil
action or criminal judgment.
(4) In no event shall a prisoner be prohibited from
bringing a civil action or appealing a civil or criminal
judgment for the reason that the prisoner has no
assets and no means by which to pay the initial partial
filing fee.
Upon the filing of an affidavit in accordance with
(c)
subsections (a) and (b) and the prepayment of any
partial filing fee as may be required under subsection(b), the
court may direct payment by the United States of the
expenses of
(1)
printing the record on appeal in any civil or
criminal case, if such printing is required
by the appellate court;
(2)
preparing a transcript of proceedings before a
United States magistrate judge in any civil or
criminal case, if such transcript is required by
the district court, in the case of proceedings
conducted under section 636(b) of this title or
under section 3401(b) of title 18, United States
Code; and
printing the record on appeal if such printing is
(3)
required by the appellate court, in the case of
proceedings conducted pursuant to section
636(c) of this title. Such expenses shall be paid
when authorized by the Director of the
Administrative Office of the United States
Courts.
6

The officers of the court shall issue and serve all
(d)
-proGcss,-and-perform-ail-dut-les-in-such-cases»--------- -—Witnesses shall attend as in other cases, and the same
remedies shall be available as are provided for by law
in other cases.
The court may request an attorney to represent
(e)
(1)
any person unable to afford counsel.
(2)
Notwithstanding any filing fee, or any portion
thereof, that may have been paid, the court shall
dismiss the case at any time if the court
determines that (A) the allegation of poverty is untrue; or
(B) the action or appeal
(i) is frivolous or malicious;
(ii) fails to state a claim on which relief
may be granted; or
(iii) seeks monetary relief against a
defendant who is immune from such relief
Judgment may be rendered for costs at the
(*)
(1)
conclusion of the suit or action as in other
proceedings, but the United States shall not be
liable for any of the costs thus incurred. If the
United States has paid the cost of a stenographic
transcript or printed record for the prevailing
party, the same shall be taxed in favor of the
United States.
(2)
(A) If the judgment against a prisoner includes
the payment of costs under this subsection,
the prisoner shall be required to pay the full
amount of the costs ordered.
(B) The prisoner shall be required to make
payments for costs under this subsection in the
same manner as is provided for filing fees under
subsection (a)(2).
(C) In no event shall the costs collected exceed
the amount of the costs ordered by the court.

7

(g)
In no event shall a prisoner bring a civil action or
appeal-a-iudgment-in-a-civil-action-or-proceedingiz^^m:
under this section if the prisoner has, on 3 or more
prior occasions, while incarcerated or detained in any
facility, brought an action or appeal in a court of the
United States that was dismissed on the grounds that
it is frivolous, malicious, or fails to state a claim upon
which relief may be granted, unless the prisoner is
under imminent danger of serious physical injury.

As used in this section, the term “prisoner” means
(h)
any person incarcerated or detained in any facility
who is accused of, convicted of, sentenced for, or
adjudicated delinquent for, violations of criminal law
or the terms and conditions of parole, probation,
pretrial release , or diversionary program.
28U.S.C. § 1915.
28 U.S.C. § 2072: “Rules of procedure and evidence; power
to prescribe
(a) The Supreme Court shall have the power to prescribe
general rules of practice and procedure and rules of
evidence for cases in the United States district courts
(including proceedings before magistrate judges thereof)
and courts of appeals.
(b) Such rules shall not abridge, enlarge or modify any
substantive right. All laws in conflict with such rules shall
be of no further force or effect after such rules have taken
effect, (c) Such rules may define when a ruling of a district
court is final for the purposes of appeal under section 1291
of this title.
28 U.S.C. § 2072
Fed. R. Civ. R 4(c)(3) “Summons.Service, by a Marshal or Someone Specially
Appointed. At the plaintiff’s request, the court may order that
service be made by a United States marshal or deputy marshal or
by a person specially appointed by the court. The court must so
order if the plaintiff is authorized to proceed in forma paupers
under 28 U. S. C. §1915 or as a seaman under 28 U.S.C. §1916.
Fed. R. Civ. P. 4(c)(3)

8

U.S. district court NDNY Local Rule (2020) 5.4 Civil Actions Filed
InJEorma .Pauperis; Applic ationsJPor_Leay_e_to Proceed In Forma
Pauperis.
~
'
‘
'
(a) On receipt of a complaint or petition and an
application to proceed in forma pauperis, and supporting
documentation as required for prisoner litigants, the Clerk
shall promptly file the complaint or petition without the
payment of fees and assign the action in accordance with
(L.R. (2020) 40.1. The Clerk shall then forward the complaint
or petition, application and supporting documentation to the
——
assigned judicial officer for a determination of-the znforma—
pauperis application and the sufficiency of the complaint or
petition and, if appropriate, to direct service by the
Marshal. Prior to the Marshal serving process pursuant to
28 U.S.C. § 1915 (d) and L.R. (2020) 5.1 (e), the Court shall
review all actions filed pursuant to 28 U.S.C. § 1915 (g) to
determine whether sua sponte dismissal is appropriate. The
granting of an in forma pauperis application shall not relieve
a party of the obligation to pay all other fees for which that
party is responsible regarding the action, including but not
limited to copying and/or witness fees.
(b) Whenever a fee is due for a civil action subject to the
Prison Litigation Reform Act (“PLRA”), the prisoner
must comply with the following procedure:
1.
(A) Submit a signed, fully completed and
properly certified in forma pauperis application;
and (B) Submit the authorization for issued by the
Clerk’s office.
(i) If the prisoner has not fully complied with
2.
(A)
the requirements set forth in paragraph 1
above, and the action is not subject to sua
sponte dismissal, a judicial officer shall, by
Court order, inform the prisoner about
what he or she must submit in order to
proceed with such action in this District
(“Order”).
(ii) The Order shall afford the prisoner
thirty(30) days in which to comply with
the terms of same. If the prisoner fails to
comply fully with the terms of such Order
within such period of time, the Court shall
dismiss the action.
9

3.

(B) If the prisoner has fully complied with the
—r-equirements-set-forth-in-paragraph-1—
above, and the action is not subject to sua
sponte dismissal, the judicial officer shall
review the in forma pauperis application.
The granting of the application shall in no
way relieve the prisoner of the obligation to
pay the full amount of the filing fee.
After being notified of the filing of the civil
action, the agency having custody of the prisoner
shall comply with the provisions of
'
28 U.S.C. § 1915 (b) regarding the filing fee due
for the action.
U.S. district court NDNY Local Rule
(2020) 5.4

10

STATEMENT OF THE CASE
This is not a Rule 12.6 notification that the petitioner believes the United States
has no interest in the outcome of the petition.
Free U. S. citizens, rich and poor, (Shields is of these people) have fair right
to petition the Government for a redress of grievances under U. S. Constitution
Amendment I., protected, here, by both U. S. Const. Article VI. And Article'III, § 2.
This civil action addresses free U. S. citizens, rich and poor (Shields is of
these people).
This civil action addresses fair right to petition the Government for a
redress of grievances under U. S. Constitution Amendment I. :
Shields’s complaint,
questions the fair right to petition,
[(complaint p. 1 of 1) questions equal right to petition]
the Government
[(complaint p. 1 of 1) says “the federal government”]
for the people’s right
[(complaint p. 1 of 1) compares only free U. S. citizens, rich
and poor, (and, Shields is similarly situated because she is a
free U. S. citizen.)]
for a redress
[(complaint p. 5 of 5) for relief]
of grievances
[(complaint pp. 2 of 5 through 5 of 5) statement of claim for
which relief may be granted].
11

Shields’s complaint is a constitutional question about fair right to petition, not
raised for the first time on appeal. (Appendix M).
And, governmental immunity, to this civil action, was not raised for the first
time on appeal, as well [(complaint p. 5 of 5) the claim for which relief may be
granted (in this civil action - fair right to petition) may need to be separated from
governmental immunity (this petition for writ of certiorari- see question
presented on page viii. of this document, before this Court, is “the may need to be
separated” issue )]. (Appendix M).
Governmental immunity, exempting its duty to the First Amendment’s fair
right of the people to petition the Government for redress of subject-matter
grievances, is for the United States, defendant-appellee-respondent, to claim
sovereign immunity over this action’s subject-matter jurisdiction, over this
constitutional matter jurisdiction. The United States wrote to the Clerk of the U. S.
court of appeals for the Second Circuit that they were never made party, not
served properly. (Appendix I). Yet, Fed. R. Civ. R 4(c)(3) says, Summons...Service...
by a Marshal...the (U. S. district court NDNY) must so order if the plaintiff is
authorized to proceed in forma pauperis, under 28 U. S. C. § 1915. (Appendix J
shows IFP status)On December 10, 2020, the U. S. Court of appeals for the Second
Circuit Ordered the United States, defendant-appellee, giving further direction.
(Appendix E). And, before January 14, 2021, the U. S. Supreme Court placed
Shields’s before-judgment petition for writ of certiorari on the U. S. Supreme
Court docket.
12

But, on February 12, 2021, the Government responded to the action by filing
a waiver to waive its right to file a response to the petition, unless the Supreme
Court requested it. (please note that the New York State address the Government
used on this waiver for Shields is misspelled - it has Shields’s residential city to be
Sarasota Springs, but Shields’s residential city is Saratoga Springs.) On March 8,
2021, the U. S. Supreme Court denied the before-judgement petition for writ of
certiorari. (Appendix D). Yet, the United States does have interest in the outcome
of the petition.
The U. S. court of appeals for the Second Circuit entered Summary Order
and Judgment on June 4, 2021. (Appendix A). Its Mandate entered July 26, 2021 for
the U. S. district court NDNY to amend its judgment to be without prejudice, but to
otherwise accept judgment. [(Appendix B): from (Appendix F) based on (Appendix
G) to (Appendix C)]. A result for the remand was the Report-Recommendation in
its entirety, except without prejudice. (Appendix H).
In the court of the first instance in this civil action, Shields’s did submit the
question page, again, through timely objections through paper, mailed USPS as is
customary. (Shields was an essential worker during the intense April 2020 to May
2020 covid pandemic in New York State, when Shields was required to report,
while most New Yorkers were required to stay at home without exiting, except for
essential errands.) Those Shields’s Objections were: (Appendix K). It is unknown
to Shields why the U. S. district court assigned cause 42 U. S. C. § 1983 to the U. S.
district court General Docket (Appendix L); this is because Shields never asked for
it, Shields’s complaint’s papers never requested it, so, Shields objected to it in
Objections (Appendix K).

13

11*

. *.

And, the Objections’ page 6 of 7 invoked may show U. S. Const, art. Ill, § 2 and
alleged fact is “The judical Power shall extend... - to Controversies to which
United States shall be a party....” (Appendix K). The U. S. court of appeals for the
Second Circuit accepted the federal district court NDNY Clerk’s Certification
showing, at the end of the page, “...Motion for leave to proceed in forma pauperis
was granted....” (AppendixJ).This petition for writ of certiorari, with its motion
to proceed in forma pauperis, is timely, postmarked within 90 days of June 4,
2021. This is an after- Second Circuit judgment petition for writ of certiorari.
Shields used rules and guidelines on paper that this Court mailed to her on August
6, 2021 to prepare this document.
No law apart from prisoner statute has the Government made for free
U. S. citizens, rich and poor, to fairly petition the Government for a redress of
grievances; such is Shields’s experience in U. S. district court NDNY - she had no
other option, unlike other free U. S. citizens rich, but to file to proceed through
prisoner statute so her complaint may proceed in federal court. Proceeding
through in forma pauperis is proceeding through prisoner statute. 28 U. S. C. §
1915 is “Proceedings in forma pauperis.” Not having equal opportunity, compared
to some other free U. S. citizens, to the right of petition apart from having to apply
to proceed via prisoner statute, is unfair; Shields’s right to petition, here, is not
fair.
This Statement of the Case is to the best of Shields’s ability as pro se
petitioner, who is not an attorney, but who is a free U. S. citizen, who has never
been incarcerated and who has never been detained in any facility, but who has
always been a free United States non-prisoner citizen.
14

’fl'-

REASONS TO GRANT THE PETITION

We the People of the United States, in Order
to form a more perfect Union, establish Justice, in­
sure domestic Tranquility, provide for the common
defence, promote the general Welfare, and secure
the Blessings of Liberty to ourselves and our
Posterity, do ordain and establish this Constitution
for the United States of America.
U. S. Const, pmbl.
The people ordained and established the U. S. Constitution, and the
Government has authorized all words inside it.

The United States Constitution protects the people of the U. S. Constitution
to petition the Government for a redress of grievances so a complaint may
proceed. This right is found inside U. S. Constitution Amendment I. Not to protect
the fair right of the people to petition the Government for a redress of grievances,
but to claim Government immunity to the fair right of the people to petition the
Government for a redress of grievances, may be to reduce this right of the people.
The word, “abridge” is defined by Black’s Law Dictionary, 8th edition, on
page 6 : “1. To reduce or diminish....”
And, to require the people to obtain a waiver to Government immunity may
not to protect the people of the United States, here either. This means one must go
outside U. S. Constitution Amendment I. to beg a waiver, allowing the Government
to consent to not be exempt from duty inside the right of the people to petition the
Government for a redress of grievances, so a complaint may proceed. Black’s Law
15

V*

Dictionary, 8th edition, defines, on page 765, “immunity” to be “1. Any exemption
from a duty....” But, the Government consented to not be exempt from duty to the
Constitution over two centuries ago. On December 15, 1791, the United States
Government consented to being present inside U. S. Constitution Amendment I.
right to petition, ratified effective that day. The United States, the Government has
interest in the outcome of the petition. The people need not to seek any waiver
from the Government who may have no exemption from duty to be present inside
U. S. Constitution Amendment I. right to petition. The Government may be
presumed constitutionally not immune here.

When U. S. Constitution Amendment 1. speaks, the people of the United
States listen. For example, the people of the United States applauded the decision
in New York Times Co. v. United States (1971); here, “the Government,” was
actively engaged, responding to the case. Here, the New York Times was
petitioner, and the United States was respondent. And, here, the U.S. Constitution
Amendment I. role of “the Government” was not one with sovereign immunity.
Shields contends that the right of the people to petition “the Government”
for a redress of grievances, without “the Government” being immune, is as
important as the right of the press; the right of the people to petition “the
Government” for a redress of grievances, without “the Government” being
immune, is not less important than the right of the press.

16

*■*

When the United States, as respondent, is silent or exempts itself from
duty, the people of the United States put on hearing aids. For example, is it the
President’s prerogative to do nothing if the Constitution commands something
within the outer perimeter of the duties of the President? Or, is the President
immune from duties inside the U.S. Constitution, superior words presumed clear
from constitutional immunity?
In Nixon v. Fitzgerald (1982), the President or Former President has absolute
immunity from duties of the President within the outer perimeter. Yet, U.S. Const.
art. VI. states, “... all executive ... Officers, ... of the United States ...
shall be bound by Oath or Affirmation, to support this Constitution....” Shields
asserts that one of the duties within the President’s outer perimeter not exempt
from immunity is the duty to steadfasdy uphold all words in the U. S. Constitution.
When the citizens of the United States see reduction in the people’s right to
petition the Government for a redress of grievances, the people of the United
States put eyeglasses on to scrutinize. For example, Congress passed prisoner
statute, 28 U. S. C. § 1915. Afterwards, some free U. S. citizens started being
required to go through the prisoner statute so their complaint may proceed
because someone else did it; this unfair right to petition the Government for a
redress of grievances became an alleged glaring reduction in fairness of U. S.
Constitution Amendment I. right to petition for free citizens, rich and poor - the
opportunity for fair right to petition apart from prisoner statute became not
equitable. Inequality reduces balance in the scales of justice. Stare decisis appears
wrong here.

17

To claim exemption from duty inside U. S. Constitution Amendment I. text,
may not be fair for the Government to do. And, the Government may not be able to
waive any right to respond due to prior Government consent to be situated inside
the First Amendment fair right to petition over 229 years ago.
For the above reasons there is national importance of having this Court
decide the questions involved.

Specific to Shields’s action, Shields does not agree with the U. S. court of
appeals Second Circuit decision to dismiss the case as it is. This is because
Shields’s has asserted many alleged facts in her complaint substantiating the
subject-matter (fair right to petition) that may not be barred by sovereign
immunity denying its jurisdiction - the complaint shows Shields may not have
failed to state a claim, giving numerous alleged facts about the fair right to
petition subject-matter. Shields may have subject-matter jurisdiction, with United
States defendant, here, protected under U. S. Const, art. Ill, § 2. This subjectmatter is fair right to petition for free U. S. citizens, rich and poor, to seek redress
of grievances from the Government, the United States, defendant.
And, to state a cause of action, without failure, is to have sufficient alleged
facts to maintain the claim. At the same time, a complaint must be plain and brief.
Shields’s complaint, (Appendix M), naming the federal government, alleged that
inequity (unfairness) exists in the law for the right of free U. S. citizens, rich and
poor, to petition the Government for a redress of grievances, so a complaint may
proceed in federal court. The complaint alleged this is a civil action. The
18

complaint alleged this is a constitutional rights complaint. The complaint alleged
that the unfairness is that free U. S. citizens, rich and poor, do not have equal
opportunity to right of petition apart from prisoner statute, 28 U. S. C. § 1915
governed, for Shields, by U. S. District court NDNY Local Rule (2020) 5.4. The
complaint alleged that Shields had been determined to be poor. The complaint
alleged this unfair treatment in existing law toward U. S. citizens rich and poor is
not fair right, not consistent with a promise, Judicial Oath in 28 U. S. C. § 453.
[A promise injudicial Oath, here, is to do equal right to the poor and to the rich,
under the Constitution and the laws of the United States, with U.S. Constitution,
supreme Law of the Land. (U. S. Const, art. VI.)] The complaint alleged that this
unequal treatment for free U. S. citizens, rich and poor is not fair right to petition,
apart from prisoner statute; violates security of “Blessings of Liberty” under the
United States Constitution - it is not fair. [Shields knows that “Liberty” is freedom
from arbitrary restraint, as defined in Black’s Law Dictionary, 8th edition on page
937, and that arbitrariness is based upon prejudice.] The complaint alleges harm
to Shields, constitutional violation is harm. The complaint alleges Shields has
always been a free U. S. citizen. The complaint alleges that Shields is no prisoner,
that Shields has never been a prisoner. The complaint alleges harm, not only to
Shields, but also to the U. S. Constitution, constitutional violation is harm, she was
treated unfairly. The complaint alleges Shields had no equal right in violation of
the equal right clause of United States law 28 U. S. C.§ 453, to pursue fair right to
petition, [the subject-matter is fair right to petition] Apart from prisoner statute,
28 U. S. C. § 1915 - no fair law exists for free U. S. citizens, rich and poor,
19

to pursue fair right to petition. The complaint on page 5 of 5 alleges, the claim for
which relief may be granted may be needed to be separated from governmental
immunity. So, Shields believes that she has established adequate alleged facts to
maintain the claim. [In terms of government immunity blocking subject-matter
jurisdiction under U. S. Const, art. Ill, § 2, the fair right to petition may be
protected for the people against the Government being immune from its duty to
perform inside the First Amendment. Because U. S. Constitution Amendment I.
fair right to petition includes the Government, situated there for over two
centuries, Shields asserts that the United States, as party, has duty to perform,
duty of care; it gave its consent to not be immune to constitutional text, time ago.]
With regard to immunity, the Government owes Shields a duty of care not to
exempt itself from duty to its presence in First Amendment right to petition, not to
allegedly ignore both U. S. Const, art. VI. And art. Ill, § 2 relying only on court
direction to perform its duty to respond.
The Government breached that duty of care; it asserted its duty has
immunity to the fair right of the people (Shields) to petition the Government for a
redress of subject-matter grievances.
Shields suffered injury; the injury is alleged constitutional violation,
Shields’s fair right to petition the Government for a redress of grievances,
abridging Amendment I., reducing fairness.
The alleged constitutional violation was a result of the Government’s duty
to be responsive and not to claim immunity to Shields’s fair right to petition.
The district court NDNY chose 42 U. S. C. § 1983 to put on the General

20

Docket, but Shields had not requested it in her papers filed February 12, 2020,
entered the next day. Shields tried to Object to it in her timely Objections
[Appendix K] to the April 30, 2020 Report-Recommendation and Order. Shields
does appreciate the fact that the U. S. district court filed her objections quickly.
Shields is pro se.
But, U. S. district court NDNY Local Rule (2020) 5.4 governs Shields’s in
forma pauperis proceedings. Inside this Local Rule (2020) 5.4 is the sentence,
“Prior to the Marshal serving process pursuant to 28 U. S. C. § 1915(d) and L. R.
(2020 Local Rule) 5.1(e), the Court shall review all actions filed pursuant to 28 U. S.
C. §1915(g) to determine whether sua sponte dismissal is appropriate.” So,
reviewing all actions pursuant to 28 U. S. C. §1915(g) is to review:
“ (g)

In no event shall a prisoner bring a civil action or
appeal a judgment in a civil action or proceeding
under this section if the prisoner has, on 3 or more
prior occasions, while incarcerated or detained in any
facility, brought an action or appeal in a court of the
United States that was dismissed on the grounds that
it is frivolous, malicious, or fails to state a claim upon
which relief may be granted, unless the prisoner is
under imminent danger of serious physical injury.

Reading Shields’s action pursuant to 28 U. S. C. §1915(g) and determining
sua sponte dismissal is appropriate is to call free U. S. citizen Shields a “prisoner”
when she has never been “prisoner” and to say Shields has been “incarcerated or
detained in any facility,” when she has never been incarcerated and never been
21

detained in any facility. This treatment is demeaning to Shields. To allegedly
falsely pass through 28 U. S. C. §1915(g) review saying Shields is “prisoner” and
has been “incarcerated or detained in any facility” in order to sua sponte dismiss
her case, is wrong; it is harmful; it injures Shields. Shields has always been free.
Such treatment is not equal to free U. S. citizens, rich and poor, so the right
to petition is diminished. Such treatment is not equal for Shields, compared to
other U. S. citizens, rich, - her right to petition is reduced through unfairness.
And, Shields questioned U. S. district court Local Rule (2020)5.4 on the face
of her complaint, about the fair right to petition the Government for a redress of
grievances so her complaint may proceed. (Appendix M). For, the district court’s
Local Rule (2020) 5.4 governs in forma pauperis proceedings requiring whether
sua sponte dismissal is appropriate [required before court-directing the Marshal
to serve (the defendant, United States)]. But, Shields does not understand how sua
sponte dismissal could ever be appropriate for her, or for any other free U. S.
citizen like Shields who has never been a prisoner, who has never been
incarcerated, who has never been detained in any facility, but who is similarly
situated.
The United States cried, “Fold!,” saying, “...we will not be participating in
the captioned civil appeal, absent some further direction from the (U. S. court of
appeals for the Second Circuit) Court...” (Appendix F). So, the United States did
receive further direction from the U. S. court of appeals for the Second Circuit
through an Order dated December 10, 2020, acknowledging the United States
should participate in its role as defendant, giving an example. (Appendix E).

22

Further, with regard to the United States role within the right to petition the
Government for a redress of grievances, the Summary Order on June 4, 2021
chose to review anew “the district court’s sua sponte dismissal of a complaint
under 28 U. S. G. §1915(e)(2)(B) and its determination of its subject matter
jurisdiction, including whether sovereign immunity exists.’’(and failure to state a
claim on which relief may be granted) (Appendix A).
Shields does not agree with the following findings in the Summary Order:
1. Summary Order finding: “The district court correctly held that sovereign
immunity deprived it of subject matter jurisdiction over Shields’s
complaint.” (Shields’s position is that the district court did not correctly hold that
sovereign immunity deprived it of subject matter jurisdiction over Shields’s
complaint. The United States may not be immune to First Amendment fair right to
petition.)
2. Summary Order finding: ‘“The United States, as sovereign, is immune
from suit unless it waives immunity and consents to be sued.” citation.’ ( Shields’s
position is that the United States does not have immunity from suit in this case
and there is neither need to waive any immunity, nor need to ask the United States
for consent to be sued. The United States has authority, but the U. S. Constitution
is supreme Law of the Land under U. S. Const, art. VI., and “the Government” in
Amend. I. fair right to petition may be presumed constitutionally not immune.)
3. Summary Order finding: ’“...(T)he plaintiff has a burden of showing
that subject matter jurisdiction exists.” citation...never alleged in her complaint
that the United States waived sovereign immunity and consented to be sued

23

pursuant to the statutes under which she asserted claims (28 U. S. C. §§ 453 and
1915)...failed to establish subject matter jurisdiction which requires “a clear
statement from the United States waiving sovereign immunity” citation.
[[Shields’s position is that Shields showed that subject matter jurisdiction exists,
presenting a federal question on page 1 of 1 in the complaint, consistent with
Congressional statute 28 U. S. C. § 1331, under U. S. Const, art. VI. and U. S.
Const.art. Ill, §2, asking about the fair right for all free U. S. citizens to petition
the Government for a redress of grievances, so a complaint may proceed in
federal court. Shields may need not seek any consent from the United States to
waive the Government’s immunity because U. S. Constitutional law ratified,
effective December 15, 1791, shows the United States may have consented to be
present inside the role of participant for the right of the people to petition the
Government for a redress of grievances, presumed constitutional duty, not
immune from it in the first place.,
And, Shields’s complaint questions fairness in use of, not only 28 U. S. C. §§
453 and 1915 statutes, but also questions fairness in U. S. district court NDNY
Local Rule (2020) 5.4 - [this 2020 version use in governing in forma pauperis
proceedings includes 28 U. S. C. 1915(g) review prior to sua sponte dismissal.
Shields asserts unfairness, the requiring of alleged wrong 28 U. S. C. §1915(g)
review for Shields, reduces her First Amendment right to petition because it is
unfair, to say, for e.g. Shields is incarcerated when she has never been and to say
24

Shields is detained in a facility when she has never been - this unfair process has
happened more years than just 2020 matters for Shields and for other free U. S.
citizens, similarly situated. It is alleged plainly wrong. Shields is asking
constitutional question meeting Congressional statute 28 U. S. C. § 1331 and U. S.
Const, art. Ill, §2 under U. S. Const, art. VI. by this being a civil action arising
under the Constitution and laws of the United States, pursuant to it.]

4. Summary Order finding: “decline...sovereign immunity violates her right
to petition the government under the First Amendment... which she raises for the
first time on appeal.” [Shields questioned fair right to petition the Government for
a redress of grievances in the complaint. (Appendix M) Shields’s position is that
fair right to petition is U. S. Constitution Amendment I. right to petition, was not
raised the first time on appeal. The reason Shields wrote in her complaint on page
5 of 5, “But, the claim for which relief may be granted may need to be separated
from governmental immunity, if conflict exists between the U. S. Constitution and
other federal law affecting a judicial swath...” is that Shields believes that the
Government is not immune to its presence in U. S. Constitution Amendment I
right to petition.]

5. On page 2 of the U. S. Court of appeals for the Second Circuit Summary
Order are the words, “...The district court sua sponte dismissed the complaint

25

with prejudice under 28 U. S. C. §1915(e)(2)(B), holding that it was barred by
sovereign immunity and failed to state a claim....” (Appendix. A).
A problem with accepting the Second Circuit’s Summary Order and Judgment is that
the lower court’s Report-Recommendations are adopted in its entirety and the case
is dismissed. The Report-Recommendation supports that under the Constitution,
the United States Government possesses absolute immunity from suit without its
consent, referencing multiple cases. (App. J ). [But, Shields, plaintiff, on page 5 of 5
in her complaint said, “ ...claim for which relief may be granted may need to be
separated from government immunity....” And,
Shields supports that the United States may not be immune over fair right to
petition subject-matter jurisdiction about Shields’s presented claims, in her
complaint, that may allow subject-matter jurisdiction and that may allow no failure
to state a claim on which relief may be granted, because Shields did state a claim on
which relief may be granted: as 28 U. S. C. § 2072 relief is respectfully requested in
the complaint on page 5 of 5. (Appendix M).
For the United States not to participate as defendant and/or appellee and/or
respondent is an alleged reduction in Shields’s fair right to petition under the First
Amendment to the U. S. Constitution, under U. S. Const, art VI. and U. S. Const. Art.
Ill, §2, but the United States still has interest in the outcome of this the case.
The United States is neither supreme over U. S. Constitution Article VI, nor
supreme over U. S. Constitution Article III, section 2.

26

'X

And, any exception to the U. S. Constitution is not the supreme Law of the Land.
(U. S. Const, art. VI.) U. S. Constitution art. III. sect. 2. says, “the judicial Power
shall extend to all cases, in Law and Equity, arising under this Constitution....”
This is a case in law and equity arising under the U. S. Constitution and laws of
the United States made in pursuance thereof.
And, Chief Justice Marshall, in Marbury vs. Madison (1803), wrote a
decision establishing Supreme Court power over evaluation of constitutionality.
The U. S. court of appeals for the Second Circuit appears to have decided a
constitutional question about whether or not the Government is immune from
Shields’s fair right to petition the Government for a redress of grievances so her
complaint may proceed, has decided an important question of constitutional and
federal law that has not been, but should be settled by this Court.

27

CONCLUSION

Considering the above, the petition for a writ of certiorari should be
granted,please.
Respectfully submitted,

28

